GR-50-98-030
U. S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Drug Court Implementation Initiative Grant
Administered by the Douglas County District Court
Douglas County, Omaha, Nebraska
Grant No. 96-DC-MX-0016
Audit Report Number GR-50-98-030
 
September 15, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the drug
court implementation initiative grant awarded by the U.S. Department of Justice, Office of
Justice Programs, Grant Number 96-DC-MX-0016, administered by the Douglas County
District Court (Douglas County). The grant was awarded in the amount of $470,569 through
the Drug Court Program Office, for the period of September 1, 1996 through March 31, 1998,
and was awarded a "no cost" extension through December 31, 1998. The
purpose of the grant is to implement a drug court in Douglas County, Nebraska.
In brief, our audit revealed:


 Unallowable fringe benefits, salaries, rent, and contractor payments totaling
    $22,974.
 Unsupported fringe benefits and salaries totaling $83,773.
 Excess grant award of $224,701 based on projected total program costs.
 Financial and Progress Reports were not submitted timely nor did they accurately
    report grant activities.
 Douglas County had not contributed any matching funds to the Drug Court program
    as of March 31, 1998.


#####